<html>
<title> - NEXT STEP TO MARS: DEEP SPACE HABITATS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 NEXT STEP TO MARS: DEEP SPACE HABITATS

=======================================================================

                                 HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 18, 2016

                               __________

                           Serial No. 114-78

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
                              _____________
                              
                              
                  U.S. GOVERNMENT PUBLISHING OFFICE
20-875PDF               WASHINGTON : 2017                  
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e392e311e3d2b2d2a363b322e703d313370">[email&#160;protected]</a>  
            
             
             
             COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEPHEN KNIGHT, California           MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DRAIN LAHOOD, Illinois
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama                   ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   EDDIE BERNICE JOHNSON, Texas
STEVE KNIGHT, California
LAMAR S. SMITH, Texas
                            
                            C O N T E N T S

                              May 18, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     7

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    12

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written Statement............................................    16

                               Witnesses:

Mr. Jason Crusan, Director, Advanced Exploration Systems, Human 
  Exploration and Operations Mission Directorate, NASA
    Oral Statement...............................................    19
    Written Statement............................................    22

Mr. John Elbon, Vice President and General Manager, Space 
  Exploration, Boeing Defense, Space, and Security, the Boeing 
  Company
    Oral Statement...............................................    28
    Written Statement............................................    30

Ms. Wanda Sigur, Vice President and General Manager, Civil Space, 
  Lockheed Martin Corporation
    Oral Statement...............................................    38
    Written Statement............................................    40

Mr. Frank Culbertson, President, Space Systems Group, Orbital ATK
    Oral Statement...............................................    48
    Written Statement............................................    51

Mr. Andy Weir, Author, The Martian
    Oral Statement...............................................    61
    Written Statement............................................    63

Discussion.......................................................    66

             Appendix I: Answers to Post-Hearing Questions

Mr. Jason Crusan, Director, Advanced Exploration Systems, Human 
  Exploration and Operations Mission Directorate, NASA...........    86

Mr. John Elbon, Vice President and General Manager, Space 
  Exploration, Boeing Defense, Space, and Security, the Boeing 
  Company........................................................    98

Ms. Wanda Sigur, Vice President and General Manager, Civil Space, 
  Lockheed Martin Corporation....................................   108

Mr. Frank Culbertson, President, Space Systems Group, Orbital ATK   120

Mr. Andy Weir, Author, The Martian...............................   132

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   136

Documents submitted to the record................................   137

 
                 NEXT STEP TO MARS: DEEP SPACE HABITATS

                              ----------                              


                        WEDNESDAY, MAY 18, 2016

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:03 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Bruce 
Babin [Chairman of the Subcommittee] presiding.
[GRAPHIC] [TIFF OMITTED] T0875.001

[GRAPHIC] [TIFF OMITTED] T0875.002

    Chairman Babin. Good afternoon. The Subcommittee on Space 
will now come to order.
    And without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing titled ``The Next Steps to Mars: 
Deep Space Habitats.'' I recognize myself for five minutes for 
an opening statement.
    The exploration of space, particularly human exploration of 
Mars, has intrigued generations around the world. Our sister 
planet holds many mysteries, and quite possibly, the keys to 
our past and our future. The profound goal of putting humans on 
Mars and perhaps establishing a settlement there, fuels our 
desire to push the boundaries of what is possible and to reach 
far beyond our own planet.
    Space exploration is in our DNA. Americans of all ages 
watched on their black and white TVs as Neil Armstrong stepped 
onto the surface of the Moon. Our collective interests have not 
waned since that time. However, we now watch in full color and 
high definition as we launch off our planet, land a rover on 
Mars, and see our astronauts on the International Space Station 
do an EVA to assemble an orbital space laboratory enabled by 
the unwavering dedication and hard work of countless thousands 
who have contributed to the historical successes and 
immeasurable benefits spaceflight and exploration have brought 
humanity.
    Last year's cinematic blockbuster, The Martian, based on 
the book written by Andy Weir, one of our witnesses today, 
wrote about the challenges an astronaut faced in order to 
survive the hostile environment of Mars faced with much 
hostility. This concept is directly related to the topic of our 
hearing: examining the challenges and discussing what it is 
going to take to turn this science fiction into a reality as we 
hope to do in the years ahead.
    One of the foremost requirements for success in such a 
profound endeavor is the support of Congress, and undoubtedly, 
bipartisan, bicameral support is strongly behind this goal. In 
fact, bipartisan support for our spaceflight and exploration 
programs is so strong that the 2016 NASA Authorization Act 
passed the House by a unanimous voice vote. In this turbulent 
political climate, a vote like that is very exceptional for any 
agency. The House's intent is clear, and I strongly urge our 
colleagues in the Senate to join us by taking up and passing a 
NASA Authorization bill this year. Doing so, in this election 
year, is particularly important as it will provide NASA 
programs the stability that they need through the uncertainty 
that results during the transition of Presidential 
Administrations.
    One of the most critical capabilities needed to sustain 
humans for a journey to Mars is a habitat. Without a viable 
habitat to protect our astronauts from the inhospitable 
environment of space, we cannot achieve our goals for human 
deep space exploration.
    Congress demonstrated its very strong support of space 
exploration last year in passing the most significant update to 
commercial space law in decades and also by providing robust 
and increased funding levels for NASA exploration programs.
    In the 2016 appropriations, Congress directed NASA to 
invest no less than $55 million for the development of a 
habitation augmentation module to maximize the potential of the 
SLS/Orion architecture in deep space and to develop a prototype 
module no later than 2018.
    Astronaut Scott Kelly's nearly year-long mission aboard the 
International Space Station has provided substantial scientific 
data which we continue to assess, related to the physiological 
and psychological impacts humans face during long-duration 
space missions. However, much research still needs to be done 
to develop systems and operations to mitigate these impacts for 
sustaining crew health, and for this reason, it is critical 
that the ISS be fully utilized through 2024.
    We know what goal we want to achieve: putting humans on 
Mars. What continues to be unclear is the detailed plan. How 
are we going to accomplish this bold and challenging goal? What 
are the requisite precursor missions, the technologies, 
sustaining systems, and habitation requirements and current 
capabilities? Until this detailed plan is outlined, there are 
many unknowns but what we do know is that NASA will need 
habitation and there are many questions that surround this 
requirement. How will NASA acquire habitation? How will 
development be funded? Will NASA develop the capability by 
contracting with a company on a cost-plus basis as it did for 
the programs in the past? Or will they seek to procure 
habitation as a service by leveraging previous development 
work? Will NASA use public-private partnerships? And if so, how 
will NASA divide the investment? How will it treat the 
intellectual property? And will the taxpayer get a deal on the 
price if it contributes to the development?
    We have tremendous lessons learned related to systems 
development along with the pros and cons of various acquisition 
approaches. Regardless of the ultimate decision, the 
acquisition parameters and requirements must be clear before 
any action is taken. NASA simply doesn't have the time or the 
budget to experiment on unproven acquisition models. It's long 
past time to apply the lessons learned and make the decision 
based on what is the most assured and efficient way for NASA to 
acquire this capability.
    Whatever NASA proposes, I sincerely hope it will be in the 
best interests of our American taxpayers. It would be a shame 
if we repeat the mistakes of the past: government paying for 
the development of habitation capabilities, and then turn 
around and pays again to procure the service from the same 
provider. NASA's decisions on ``make'' or ``buy'' will be 
critical.
    Is it possible that industry may be able to provide turnkey 
cost-effective services that are developed with minimal 
taxpayer support? Is there a market for low-Earth orbit 
habitats, sufficient to support a post-ISS paradigm, which can 
be leveraged for deep space habit requirements?
    We are an exceptional nation of doers, and as we forge a 
path through the high ground of space on our journey to Mars, I 
have strong faith in the ingenuity of American scientists, 
engineers, and the entire industry to address the challenges 
posed by deep space exploration and to develop the spaceflight 
systems needed to reach our goals in a safe, sustainable and 
affordable way.
    I'm pleased to welcome our witnesses, and I look forward to 
hearing their perspectives as to how NASA should consider 
acquiring habitation goods and services to meet future mission 
requirements, and thank you all for participating.
    And Mr. Weir, I'd like to personally thank you for your 
captivating work, The Martian. It has everyone talking about 
Mars, which I believe brings us one step closer to making 
science fiction, science fact. Thank you.
    [The prepared statement of Chairman Babin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
     
    Chairman Babin. I now recognize the Ranking Member, the 
gentlewoman from Maryland, for an opening statement.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you very much for holding this hearing today on the ``Next 
Steps to Mars: Deep Space Habitats.'' Our Committee and 
Subcommittee have actively been examining aspects of the 
humans-to-Mars goal as well as how to implement it, and I'm 
looking forward to continuing the discussion this afternoon.
    I too would like to welcome our distinguished panel of 
witnesses. It's a rare opportunity to have NASA, industry 
leaders, and a best-selling author together to discuss the 
opportunities and challenges involved in sending humans to 
Mars. I would also note that in our audience today are many 
representatives I see from the industry as well, and so I think 
this is an important time for us to really get on the same page 
about next directions.
    And the fact that we will discuss today one of the critical 
elements that's needed to send humans to Mars, habitats, 
reflects the current situation that achieving the humans-to-
Mars goal is no longer a question of ``if'' but rather a 
question of ``when.'' The ``when'' will, in part, depend on 
public support, and so I'm glad that Mr. Weir is here as well 
today to provide his perspectives on how popular media, such as 
books, movies, and television can help further public support 
for the goal of sending humans to Mars.
    Other questions we need to address; however, are, of 
course, how do we get there and what do we need to be working 
on now in technology development, research, and mission 
demonstrations if we are to achieve that goal?
    This afternoon's hearing will focus on the habitats and 
habitat systems needed to protect a crew from the harshness of 
space during deep space missions. Habitats will need systems to 
provide clean air, water recovery, climate monitoring and 
control, and a means for food production. They'll also need to 
provide for fire safety within a closed environment, crew 
exercise, onboard medical services, and the ability to provide 
safe haven from solar particle storms and cosmic galactic rays 
that pose risks to crew health and mission operations. So I'm 
anxious to hear from our panelists about the concepts for 
addressing these challenges and the status of work to date on 
habitation systems.
    Finally, getting humans to Mars will require much more than 
overcoming the technical challenges of developing habitation 
systems. It will require national commitment, sustained 
support, and resources over multiple decades. Public 
excitement, anticipation and engagement in sending humans to 
Mars will also play an important role in determining the extent 
to which the Nation prioritizes this as a goal.
    So I'm pleased, Mr. Chairman, that we also have the 
opportunity today to discuss how we can stimulate and leverage 
public engagement in the goal of sending humans to Mars. And I 
would also say that I share the goal of trying to complete in 
this interim period a longer-term authorization for the agency 
to set on a path, a direction forward, particularly with 
respect to getting humans to Mars and the support of that goal 
so that in fact we can make the kind of appropriate transition 
from one Administration to the next that doesn't require us to 
start from square one. And so I look forward in these next 
several months to doing exactly that.
    And lastly, I'd like to thank again our witnesses for being 
here, and I truly do look forward to your testimony.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Ms. Edwards follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Ms. Edwards.
    And I now recognize the Chairman of our full Committee, Mr. 
Lamar Smith from Texas.
    Chairman Smith. Thank you, Mr. Chairman, and I too 
appreciate our witnesses who are here today as well as the many 
stakeholders who are represented in the audience as well. It's 
nice to see a full room.
    I also want to single out a gentleman sitting in the front 
row to my right and compliment him on his tee shirt that says 
``Occupy Mars.'' I won't ask any more questions right now but 
we'll talk later.
    Our hearing covers a critical aspect of our Nation's future 
journey to Mars: how our astronauts will live and work during 
their journey, and I'm glad that best-selling author Andy Weir 
has agreed to join us today. His book, The Martian, along with 
the movie by the same name, ignited the world's imagination. It 
brought to life an adventure that we can envision in the not-
too-distant future: journeys to Mars with heroic astronauts 
putting themselves to the test of overcoming dangers with 
ingenuity and courage.
    I wrote an op-ed with our colleague, Ed Perlmutter, two 
months ago that I would like to submit for the record without 
objection, Mr. Chairman.
    [The information appears in Appendix II]
    Chairman Smith. In this article, we discuss the persistence 
of purpose and careful planning that is needed to turn such a 
mission, the first human space flight to another planet in our 
solar system, into reality.
    This is not merely a science fiction movie starring Matt 
Damon. This is a goal within America's reach. NASA and American 
space companies are building the critical components for such a 
journey: the Orion crew vehicle and Space Launch System.
    The popularity of The Martian as a novel and a film has 
shown that the American public is very interested in making 
this vision a reality. That is why NASA should not stray from 
its primary goal of exploration.
    Exploration programs at NASA, both robotic and human, need 
to be adequately funded. Unfortunately, the Obama 
Administration, year after year, woefully under-budgets the 
very programs that will get us to Mars.
    At the same time, the Administration continues to push 
plans for an unjustified Asteroid Retrieval Mission. The 
Asteroid Retrieval Mission is a distraction without any 
connection to a larger roadmap to explore our solar system and 
is without support from the scientific community or NASA's own 
advisory committees. The Government Accountability Office 
recently estimated that the total cost for the Asteroid 
Retrieval Mission would be $1.72 billion. These funds would be 
better spent directly on space exploration with a connection to 
future missions to Mars, like deep space habitats and 
propulsion technologies.
    America leads the world in space exploration but that is a 
leadership role we cannot take for granted. It has been over 40 
years since astronaut Gene Cernan became the last person to 
walk on the moon. It is time to press forward. It is time to 
take longer strides. It is time to aim for Mars.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Mr. Chairman.
    Prior to today's hearing, the Committee received a number 
of letters, and I ask unanimous consent to include them in the 
record.
    [The information follows:]
    [The information appears in Appendix II]
    Chairman Babin. Now I'd like to introduce our distinguished 
witnesses. Our first witness today is Mr. Jason Crusan, 
Director of Advanced Exploration Systems, Human Exploration, 
and Operations Mission Directorate at NASA. In this role, Mr. 
Crusan is the Senior Executive, Manager, Principal Advisor, and 
Advocate on Technology and Innovation Approaches leading to new 
flight systems capabilities for human exploration. He manages 
500 to 600 civil servants with an active portfolio of 20 to 30 
engineering and design projects. He leads integration with the 
Space Technology Mission Directorate, and the other HEOMD 
programs such as the International Space Station and the 
Exploration System Divisional--Division programs. Mr. Crusan 
holds bachelor's degrees in electrical engineering and physics, 
a master's in computer information systems, and is currently a 
candidate for a Ph.D. in systems engineering and engineering 
management at George Washington University. Very impressive.
    Secondly, Mr. John Elbon, who I've had the pleasure of 
knowing for a number of years. He is our second witness. John 
Elbon is Vice President and General Manager of Space 
Exploration at Boeing Defense, Space and Security at the Boeing 
Company. In his role at Boeing, Mr. Elbon is responsible for 
the strategic direction of Boeing's civil space programs and 
support of NASA programs such as the International Space 
Station, Commercial Crew Development program, and the Space 
Launch System, SLS. Prior to being named Vice President and 
General Manager of Space Exploration, Mr. Elbon served as Vice 
President and Program Manager for Boeing's commercial programs 
as well as the Boeing Program Manager for several NASA programs 
which include Constellation, ISS, and the Checkout Assembly and 
Payload Processing Services contractor, CAPPS, at Kennedy Space 
Center. Mr. Elbon holds a bachelor of aerospace engineering 
from Georgia Institute of Technology.
    Our third witness today is Ms. Wanda Sigur, Vice President 
and General Manager, Civil Space, at Lockheed Martin 
Corporation. Ms. Sigur has executive responsibility for 
critical national space programs relating to human spaceflight 
and space science missions including planetary, solar, 
astrophysical, and Earth remote sensing for civil and 
governmental agencies. Some of these major programs include the 
Orion Multipurpose Crew Vehicle, Hubble and Spitzer space 
telescopes, the GOES-R weather satellites, Juno, GRAIL, MAVEN, 
Mars Reconnaissance Orbiter, Mars Odyssey, and OSIRIS-Rex 
planetary missions and the company's nuclear space power 
programs. She holds a bachelor's degree in mechanical and 
material sciences and engineering from Rice University and a 
master's degree in business administration from Tulane 
University. Welcome, Ms. Sigur.
    Our fourth witness today is Mr. Frank Culbertson. Mr. 
Culbertson is President of Space Systems Group at Orbital ATK. 
Mr. Culbertson is responsible for the execution, business 
development, and finances of the company's human spaceflight 
science commercial communications and national security 
satellite activities as well as technical services to various 
government customers. These include some of Orbital's largest 
and most important programs such as NASA's Commercial Resupply 
Services, or CRS, these initiatives, as well as various 
national security-related programs. Throughout his 
distinguished career, Mr. Culbertson has received numerous 
honors including the Legion of Merit, the Navy Flying Cross, 
the Defense Superior Service Medal, the NAAFAI Gagarin Gold 
Medal, and the NASA Distinguished Service Medal. As an 
astronaut, he logged over 146 days in space over three flights. 
He is a graduate of the United States Naval Academy at 
Annapolis. Welcome.
    Our final today is Mr. Andy Weir, author of The Martian. 
Mr. Weir was first hired as a programmer for a national 
laboratory at age 15, and he has been working as a software 
engineer ever since. He is also a self-proclaimed lifelong 
space nerd and a devoted hobbyist of subjects like relativistic 
physics, orbital mechanics, and the history of manned 
spaceflight. The Martian, which is his first novel, has won 
numerous awards and has been adapted to a film directed by 
Ridley Scott by the same name, and I'm sure many of us have 
seen it.
    So I now recognize Mr. Crusan for five minutes to present 
his testimony.

                 TESTIMONY OF MR. JASON CRUSAN,

            DIRECTOR, ADVANCED EXPLORATION SYSTEMS,

                HUMAN EXPLORATION AND OPERATIONS

                   MISSION DIRECTORATE, NASA

    Mr. Crusan. Mr. Chairman and Members of the Subcommittee, 
thank you for this opportunity to appear before you today to 
discuss NASA's plans for development of habitation capabilities 
for the post-International Space Station era.
    As you know, the agency plans to continue ISS operations 
and utilization through at least 2024. ISS and its successor 
capabilities are essential to conducting research on human 
health and performance, testing and demonstration of 
technologies critical for deep space missions, and expanding 
our knowledge of space. These activities comprise our Earth-
reliant portion of our journey to Mars.
    The Space Launch System and Orion crew vehicle now well 
under development will carry us into the proving ground of 
cislunar space where our primary goal for human spaceflight is 
to develop the crew capabilities necessary for long duration 
transit missions to and from Mars.
    The next human exploration capabilities needed beyond SLS 
and Orion are deep space long-duration habitation and in-space 
propulsion.
    Missions in the proving ground will simulate and test Mars 
transit systems and operations through limited interaction with 
Mission Control, limited cargo supply with no crew exchanges, 
and will culminate with a long-duration crew validation 
expedition within cislunar space or beyond by the end of the 
2020s.
    NASA is also actively working on low-Earth transition 
strategies for the post-ISS era as well and is encouraging the 
private sector to foster both commercial demand and supply for 
LEO services. This will allow NASA to focus its resources on 
the agency's primary goal to expand human presence into the 
solar system and to Mars consistent with Presidential and 
Congressional direction.
    ISS operations and LEO constitute a foundation for such 
expansion by performing key research and technology 
developments required for long-duration deep space missions. In 
addition to this ISS testing, NASA needs to begin operating at 
greater distances from Earth to perform deep space testing 
along with continuing to enable the transition of LEO to 
private platforms and capabilities.
    There are a number of common capabilities that NASA and our 
partners must develop over the next five to ten years including 
habitation that we're here to discuss today. Such a capability 
is the foundation of human spaceflight missions beyond LEO 
supporting our plans for Mars-class missions of distance and 
duration.
    An effective habitation capability comprises a pressurized 
volume plus an integrated array of complex systems and 
components that include docking capabilities, environmental 
control and life support systems, logistics management, 
radiation mitigation and monitoring, fire safety technologies, 
and crew health capabilities.
    To support development of habitation capabilities, NASA is 
leveraging information gathered through its Next Space 
Technologies for Exploration Partnership, or NextSTEP, broad 
agency announcements. NextSTEP is a public-private partnership 
model that seeks commercial development approaches to long-
duration deep space capabilities. In NextSTEP phase I, NASA 
selected 12 awards including seven in the area of habitation. 
The NextSTEP phase I contractors are performing advanced 
concept studies and technology development projects. In April 
of 2016 this year, the agency issued NextSTEP phase II, which 
is specifically addressing and focusing on the development of 
long-duration deep space habitation concepts that will result 
in prototype units. NASA plans to select multiple proposals 
under this solicitation in August of 2016, this year. And the 
agency intends to integrate functional systems into our 
prototype habitat for ground testing in 2018.
    Through the NextSTEP effort, NASA and industry are 
identifying commercial capability developments for LEO that 
intersect with the agency's long-duration deep space habitation 
requirements along with any potential options to leverage these 
identified commercial advances toward meeting NASA's 
exploration needs while promoting commercial activity in LEO.
    NextSTEP is a key aspect of informing the agency's 
acquisition strategy for its deep space long-duration 
habitation capability along with any considerations of 
international partner participation. It is NASA's intent that 
LEO eventually support private platforms and capabilities 
enabled by commercial markets, academia, and government 
agencies with an interest in LEO research and activities while 
the agency's primary human spaceflight focus shifts towards 
deep space beyond LEO. Private enterprise and affordable 
commercial operations in LEO will enable a sustainable step in 
our expansion into space. A robust, vibrant commercial 
enterprise with many providers and a wide range of private and 
public users will enable U.S. industry to support other 
government and commercial users safely, reliably and 
affordably.
    Mr. Chairman, I would be happy to respond to any questions 
you or the other members of the Committee may have. Thank you.
    [The prepared statement of Mr. Crusan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Mr. Crusan.
    I now recognize Mr. Elbon for five minutes to present his 
testimony.

                  TESTIMONY OF MR. JOHN ELBON,

              VICE PRESIDENT AND GENERAL MANAGER,

               SPACE EXPLORATION, BOEING DEFENSE,

            SPACE, AND SECURITY, THE BOEING COMPANY

    Mr. Elbon. Thank you, Chairman Babin, Ranking Member 
Edwards, Chairman Smith, members of the Committee. On behalf of 
the Boeing Company, thank you for the opportunity to testify 
today.
    Our Nation is on a journey to put humans on Mars. Sometimes 
I think those words roll off our tongue too easily. I'm trained 
as an engineer, and I often don't feel I have the capability to 
articulate with the enthusiasm and awe that those words 
deserve.
    If you know where to look in the sky, you can find Mars, 
and it's a small dot. When you're there and looking back, Earth 
will be a small dot, and we're going there. This is an 
incredible feat.
    Our longest missions to date have been around a year. The 
mission to Mars will be at least three years long. The largest 
payload we've landed on Mars to date is just under a ton. To 
put humans on the surface of Mars, we'll need to be able to 
land 20 to 30 tons.
    We've traveled to low-Earth orbit and to the Moon, where 
communications delays are up to three seconds. On the journey 
to Mars, communication delays will be over 40 minutes. And when 
the Mars and the Earth are on opposite sides of the sun, there 
will be a blackout for a period of two weeks. We must learn to 
operate in space without constant monitoring and control 
capability from the ground.
    These challenges are difficult, but solving difficult 
challenges is what our Nation's human spaceflight is focused on 
since its inception.
    The key to meeting these challenges is to attack them in 
phases, first by developing the necessary technologies close to 
home in low-Earth orbit aboard the International Space Station. 
Second, by developing systems based on these technologies and 
validating them in a proving ground in the area around the 
Moon. We refer to this area as cislunar. And then once these 
systems are proven safe and reliable, using them to accomplish 
our greatest achievement as humans to date: putting humans on 
Mars.
    We're making great progress through our work aboard the 
International Space Station. In addition to breakthrough 
scientific discoveries on ISS, we're learning to live for long 
periods of time in space and developing reliable systems such 
as life support systems that are necessary. This work needs to 
continue for the next decade or so when we will be well 
underway on the next step.
    The next step, of course, is to put a habitat, an outpost, 
if you will, in the vicinity of the Moon. This habitat will not 
only support validation of the capabilities we need to make the 
long journey to Mars but can also enable private industry or 
international partners to descend to the lunar surface. 
Asteroids could be returned to that outpost for scientific 
investigation, perhaps mining. Commercial resupply vehicles can 
be contracted for logistic support. And telerobotic exploration 
of the far side of the Moon can be conducted from this outpost.
    The primary objective of taking the next step to cislunar 
is to validate we're ready to go to Mars, but being there will 
enable a whole suite of exciting activities.
    There is currently an ongoing dialog around the model that 
ought to be used for the procurement of this habitation 
capability. Habitation developed for use in cislunar will be 
expanded for use during the journey to Mars and could also be 
used at least in part for a low-Earth orbit vehicle after 
retirement of the International Space Station.
    As the leader of programs operating under both public-
private partnerships such as Commercial Crew and cost-plus 
development contracts such as International Space Station and 
the Space Launch System, I've seen the advantages and 
challenges of both models. I look forward to discussing these 
as well as diving deeper into why cislunar is the next-step 
destination during our discussion today.
    I'll close by asking you to consider this: somewhere in the 
world is a student about 10 to 20 years old, probably studying 
math or science, and that student will be the first person to 
set foot on Mars. In my view, that's amazing to think about.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Elbon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Mr. Elbon.
    And I now recognize Ms. Sigur for five minutes to present 
her testimony.

                 TESTIMONY OF MS. WANDA SIGUR,

              VICE PRESIDENT AND GENERAL MANAGER,

            CIVIL SPACE, LOCKHEED MARTIN CORPORATION

    Ms. Sigur. Chairman Babin, Ranking Member Edwards, and 
Members of the Committee, I'm pleased to have the opportunity 
to talk with you today about the next steps to Mars.
    The technologies we're building today will enable human 
exploration of deep space. I actually have a few slides.
    [Slide.]
    So this slide shows the Orion crew module. It is actually 
the module that we're going to use on the next exploration 
mission, Exploration Mission-1, to fly in 2018, and what you 
see here is the crew module being put into the test fixtures 
for the proof test. I'm pleased to say that over the last few 
weeks, completed the proof test. Everything passed extremely 
well, and not only the folks that helped build it but the 
analysts excited about the performance that we see.
    The vehicle is different. It's a vehicle that's been 
designed for deep space exploration from the beginning. And 
what's different, of course, is that deep space is so very 
different from low-Earth orbit. The requirements are much more 
severe, and as Mr. Elbon mentioned, the focus has to be for a 
much longer tenure.
    This is a thousand-day-plus spacecraft. The capabilities 
include radiation-hardened command and control systems. It 
provides a radiation storm shelter. There's redundancy. 
Recognizing how far away we are from Earth, there needs to be 
redundancy in propulsion systems, computers, engines and other 
systems. It's got an amazing computing capability. It's got 
what we call time-triggered ethernet that's 10 times faster 
than your internet at home, which is going to be required for 
passing files, for passing videos and information. It's got a 
life support system. The life support system accommodates 
exercise and it accommodates all those things necessary for 
those long missions. It's got a thermal protection system that 
not only accommodates the extremely cold environments of deep 
space but allows for safe landing whether the mission was to 
the Moon or Mars. So we feel that the future of the Orion 
spacecraft is a strong one.
    I don't know how many of you remember EFT-1. That was the 
exploration flight test of the Orion vehicle, the very first 
one in 2014. We learned so much from that flight, and we are 
building on that success. This vehicle that you see here is 
4,000 pounds lighter to accommodate the life support systems. 
And so with a focus on performance, affordability, recognizing 
that every dollar matters, we've taken a view on what 
technologies are necessary to allow us to lean into the future. 
Let's go to the next slide, please.
    [Slide.]
    This is not something that's new for us. Lockheed Martin 
has had the great privilege of being involved on every mission 
to the planet Mars, and as you look at the progression of a 
dozen-plus different missions, you'll see that we've been able 
to leverage the smarts of the structures, of the computing 
systems to provide an affordable solution to the very hard 
challenges that we see. Next slide, please.
    [Slide.]
    So that concept of building on performance and capability 
is one that we've leveraged into our system or habitats. In 
order to minimize costs and maximize crew safety, we have an 
inclusive view of our architectures to say wouldn't it be great 
if we could take advantage of all those capabilities that are 
inherent in the Orion system and find ways to produce a lower-
cost solution. In support of NASA's NextSTEP study, we've 
designed a deep space habitat that does that. It leverages that 
investment in Orion. Next slide.
    [Slide.]
    Now, this is a great day. This is the day when you see the 
Orion and the NextSTEP habitat relying on each other's systems 
in order to assure overall success.
    But there's more. Next slide, please.
    [Slide.]
    We're not stopping at habitats. By leaning forward in 
accommodating what tasks have to be accomplished in the 
schedule that's head of us, you see that leaning forward in 
closing on those milestones will allow us to explore NASA's 
vision faster. We call this Mars Base Camp.
    The concept is simple: transport astronauts from Earth to a 
Mars orbiting science laboratory where they can perform real-
time science exploration, analyze the first Martian rock, make 
real-time decisions while they're at the planet.
    Mars is closer than you think, and we're very much 
interested in accelerating the journey.
    Thank you. I will be happy to answer any questions you may 
have.
    [The prepared statement of Ms. Sigur follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Ms. Sigur.
    I now recognize Mr. Culbertson for five minutes to present 
his testimony.

               TESTIMONY OF MR. FRANK CULBERTSON,

                PRESIDENT, SPACE SYSTEMS GROUP,

                          ORBITAL ATK

    Mr. Culbertson. Thank you, sir. Do we have time with the--

    Chairman Babin. We do. We're going to try to get through 
both you and Mr. Weir, and then we're going to recess to go 
vote, and we'll come immediately back, okay? So let's go ahead.
    Mr. Culbertson. Good afternoon, Mr. Chairman and Ranking 
Member Edwards, Mr. Chairman Smith, distinguished Members of 
the Subcommittee and the staff. It's a real honor for me to be 
here. I appreciate the opportunity to testify before you on 
behalf of Orbital ATK regarding our concept for deep space 
habitat as a part of the long-term path to Mars exploration.
    The Committee leadership has framed the issues very well, I 
think, in your opening remarks, and I think my colleagues have 
done a good job of talking about the things that are going to 
be a challenge for us and how we might be able to move forward 
on that. It's an exciting and inspiring time for our Nation's 
human space exploration program. NASA is on course to send 
humans beyond low-Earth orbit, leveraging what we're doing on 
the ISS, Commercial Crew and Cargo programs, as well as the 
Space Launch System, Orion, and the new cislunar habitat that 
is being proposed and studied.
    We want to achieve the goal of landing humans on Mars in 
the early 2030s, and we're proud to be supporting our NASA 
customer every step of the way.
    I think that U.S. leadership in cislunar space is critical 
to continue the leadership we have had for a long time in space 
in general. It is the high ground but it also is a great 
example of what we can do as Americans, and it inspires the 
next generation and gives them a place to go.
    By combining the new NASA and commercial space sector 
capabilities such as on SLS, Orion, Cygnus, we can develop a 
deep space habitat and high-power solar electric propulsion, 
two of the building blocks for moving on to Mars.
    We think a crew-tended lunar orbital station within the 
next five years is doable, feasible, and something that we 
should be working towards.
    Orbital ATK is a global leader in aerospace and defense 
technologies. We have delivered a lot of satellites. We have 
numbers in here, and they're in my testimony. We have over 
1,300 successful years of on-orbit satellite experience, 268 
human-rated boosters, and we are building the boosters for the 
SLS program. We have 91 satellites currently operating in 
space, and we're continuing to collaborate with NASA and our 
other customers.
    But we do think it's important to transition beyond low-
Earth orbit and to do that soon. The commercial approach that 
we've used to develop the Commercial Cargo Resupply Service we 
think is a good model for that. I think it'll be a combination 
of government programs, public-private partnership, and 
commercial endeavors in order to achieve this. We think that 
cislunar space does give us the testing ground.
    For my colleague, Mr. Bridenstine, who was here earlier, 
it's like a shakedown cruise. You've got to go out and test 
what you've got before you go and do it for real operationally, 
and I think this gives us the opportunity to do that.
    If I can have my first slide, please?
    [Slide.]
    This is an artist's conception of the cislunar habitat 
based on the Cygnus module that we used for delivering cargo to 
the International Space Station. We think it's a great starting 
point, one that's already mature and developed and actually on 
the Space Station right now and will finish a 90-day mission in 
June. So it can be developed to go beyond low-Earth orbit. Next 
picture, please.
    [Slide.]
    Here's a good picture of the Cygnus itself at the Space 
Station, and the next slide, it's a crew selfie, if you will, 
of the interior of that module once we delivered the cargo to 
the crew, which always is a good day for them. This arrived on 
Easter, so they were looking for the Easter eggs. But we're 
happy to be able to support that. We think that Cygnus provides 
the technology reduction needed to move into cislunar because 
there will be challenges there. There will be things that we 
have to overcome there that are going to challenge us on the 
way to Mars including the radiation environment, the autonomous 
operations that are necessary for such a long trip. We're 
already using Cygnus for technology development, and at the end 
of this current mission, we will activate the Spacecraft Fire 
Experiment, or SAFFIRE-1, during free flight as we leave the 
station to generate the largest fire ever generated manmade in 
space to see how things burn in space, and we know how they 
burn on Mars now, Andy, but I think this'll be a great 
experiment to enhance the safety of the crew going forward.
    Commercial acquisition practices are important and will be 
a part of it. I think that encouraging business to move into 
low-Earth orbit on a much more comprehensive basis is part of 
what's happening right now with Commercial Cargo, Commercial 
Crew, and then moving beyond that is a challenge we're going to 
have to meet but we think that it will come also. Obviously 
humans in space is the big key.
    Let me just mention something one of my kids said when I 
was training for the Space Station, and I won't embarrass him 
by telling you which one. When I was putting him to bed one 
night, he said, ``You know, Dad, you're getting pretty old,'' 
and he wasn't even a teenager yet, and I said, ``What's your 
point?'' He said, ``Well, I know you wanted to go to Mars when 
you became an astronaut but it's probably not going to happen 
while you're active. So I'll tell you what, I'll go for you.'' 
Well, he's in his 20s now, and his generation is going to go 
for me. And by the way I said, ``Well, you know, John Glenn 
flew at 77 so don't write me off yet.''
    I would love to go to Mars, and I would do it. I think that 
we are doing at Orbital ATK and our colleagues throughout 
industry, working with NASA to move into this realm, is very, 
very important and critical to U.S. leadership and critical to 
inspiring the next generation to stay involved, to get into 
science, technology, engineering and math, and keep this 
country great.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Mr. Culbertson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Mr. Culbertson.
    Mr. Weir, I am deeply apologetic but I've just been told 
most of our members have already run to vote. They've already 
called for votes. If you don't mind, we'll come back as soon as 
the voting is over and reconvene. Is that okay with you?
    Mr. Weir. Sure, that works for me.
    Chairman Babin. All right.
    Mr. Culbertson. Do you want him to put a helmet on or hold 
his breath?
    Chairman Babin. We will reconvene following the last vote 
in this series, and you don't have to have a helmet.
    [Recess.]
    Chairman Babin. I now reconvene this session of the 
Subcommittee on Space, and I apologize. We had to run down and 
vote. But that's the nature of the beast here in the United 
States Congress.
    I now recognize Mr. Andy Weir for five minutes to present 
his testimony.

                  TESTIMONY OF MR. ANDY WEIR,

                      AUTHOR, THE MARTIAN

    Mr. Weir. Mr. Chairman, Members of the Subcommittee, thank 
you for inviting me to this hearing.
    Unlike the other people you've heard today, I am not a 
space expert. I'm just an enthusiast, and I know that. But I do 
spend a lot of time thinking about the future of manned 
spaceflight and the challenges that come with it. And, to me, 
one issue stands out as the largest problem facing long-term 
space habitation. The human body is simply not suited to living 
for long periods in zero-g. Until this issue is solved, we have 
no hope of landing humans on the surface of Mars, nor can we 
create permanent residences in space.
    Astronauts who spend months in zero-g suffer bone loss and 
muscle degradation. Once they return to earth, they have to be 
carried out of their capsule by ground crew. It takes days, 
sometimes weeks for them to readapt to gravity because their 
muscles are simply too weak to stand. Imagine, then, a crew of 
astronauts setting foot on the surface of Mars after eight 
months in space to get there. They would be unable to move, let 
alone execute their mission. This is not an option.
    And that's not even the worst part. Weightlessness also 
causes degradation of the eyes, and, unlike the bone and muscle 
loss which the body will repair once it returns to gravity, the 
eye damage is permanent and irreversible.
    Astronauts aboard the International Space Station have to 
spend two hours per day exercising just to stay remotely 
healthy. This means that we dedicate one eighth of all waking 
person-hours in space to counteracting the effects of zero-g 
habitation. That time could be better spent on experiments, 
station upkeep, or simply rest for the crew.
    Instead of concentrating on ameliorating the effects of 
zero-g, we should concentrate on inventing artificial gravity. 
This is not some magical technology straight out of science 
fiction. We already know how to do it. You just need to spin 
the space station to provide centripetal force. This conjures 
up images of huge wheel-in-space constructions that we simply 
can't afford to build but centripetal gravity can be 
accomplished much more cheaply and easily than the flashy 
futuristic visions you've see in films.
    For our next space station, we should have the crew 
compartment connected to a counterweight by a long cable and 
set the entire system spinning. This creates the centrifuge, 
which will generate constant outward force for the crew. Inside 
the crew compartment, it would be virtually identical to the 
gravity we experience on Earth. All physiological problems of 
zero-g would be solved.
    Some would argue that one of the main purposes of a space 
station is to do experiments in zero-g. This is easily 
accommodated. We could have a node in the center. This would 
provide an area of zero-g for whatever experiments require it. 
The astronauts would work in there as needed, but spend most of 
their time in the crew node where their bodies get the gravity 
they need to remain healthy.
    While the concept is simple, the engineering is very 
complex. If you were standing in that crew compartment, the 
downward force on your head would be less than the downward 
force on your feet because your head is closer to the center of 
the centrifuge than your feet are. NASA conducted experiments 
on the ground with centrifuges in the 1960s. They found that 
humans get significant vertigo and dizziness from this effect 
if the rotation rate is faster than two revolutions per minute. 
I'll spare you the math, but this means the cable connecting 
the two nodes would have to be 450 meters long, which is over a 
quarter mile.
    I have no delusions that such a station would be easy to 
accomplish. Not only would it be the most massive space station 
ever built, but it would also have to stand up to the forces 
that its own artificial gravity creates. Plus, a rotating 
station would need very advanced control systems to keep its 
solar panels and thermal radiators properly aligned. It would 
be a huge engineering challenge to design and implement this 
station but huge engineering challenges are what NASA is all 
about. I have no doubt they could rise to the occasion.
    Once this station were built, its rotation rate could be 
adjusted to provide whatever gravity we wanted. We could test 
the long-term health effects of lunar gravity or Martian 
gravity, or we could leave it at Earth gravity to ensure crew 
health. And when the time comes for a human mission to Mars, 
the artificial gravity technology proven by this station will 
be employed in the vehicle that transports the astronauts 
there, ensuring that they are fully healthy and capable when 
they first set foot on the red planet.
    Thank you, and I'd be happy to answer any questions.
    [The prepared statement of Mr. Weir follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Mr. Weir. I appreciate that. I 
appreciate all the testimonies, and we're elated and delighted 
that all of you people are here to testify before us. Now the 
Chair recognizes himself for five minutes.
    All of the testimony was fascinating, especially what Mr. 
Weir just said on centrifugal force and spinning creating 
artificial gravity. But another problem when we send our 
astronauts beyond low-Earth orbit is we're exposing them to the 
dangers of deep space radiation, and without the Earth's 
protective magnetic field, future explorers are vulnerable to 
ionizing radiation, solar particle events and galactic cosmic 
rays, which pose an increased risk for cancer. This is perhaps 
the most serious scientific challenge that we face on the 
journey to Mars. And I'm wondering how we protected Matt Damon 
that entire time from this radiation and had him return safely.
    This is a question for all of you. What kinds of 
technologies are being developed that protect our astronauts 
from deep space radiation? What are some of the ideas? How are 
we integrating radiation protection into our deep space 
habitation designs? And I would appreciate an answer from any 
one of you or all of you.
    Mr. Crusan. So I'll start. Currently, we're doing 
investments in a couple different areas. First and foremost, 
the monitoring of events starting with our heliophysics efforts 
of monitoring the sun on an ongoing basis, then actually 
figuring out the modeling effects of the transfer from the sun 
into wherever our spacecraft should be, and then actually doing 
high-quality monitoring of the actual radiation particles that 
come when they get there.
    All of our studies internal and the ones we're doing under 
the NextSTEP analysis as well with the commercial folks are 
looking at optimizing the ability for storm shelters and 
deployable storm shelters and the integration of things like 
water walls into crew quarters and such. That helps with your 
SPE events and such. Galactic cosmic rays are still a 
challenge, and there isn't any current technology to address 
the high-energy GCR beyond the ability to monitor it and factor 
it in the overall dosing that we have, and I'll leave it to my 
colleagues to add to that.
    Chairman Babin. Thank you, Mr. Crusan.
    Mr. Culbertson?
    Mr. Culbertson. Yes, sir. My personal experience was that 
NASA spends a lot of time investigating what's happening to the 
astronauts both while they're in space and after they return. 
We go through an annual physical to see whether there are any 
residual effects, and the effects that Mr. Weir talked about 
are there and real, and we do do a lot of exercising and other 
countermeasures.
    The radiation aspect is a serious one too, and when you 
leave, as you said, the magnetosphere, you're exposed to it 
much more, and the types of technologies that Jason mentioned 
such as water protection, there's also PVC. People are working 
on actually superconductivity as a potential way of protecting 
the crew inside. But I think if we use the opportunity to go to 
cislunar space and when we first have a module arrive, have 
enough sensors on there to really characterize the interior of 
what the crew might be exposed to when they arrive later, then 
we might be better prepared, and of course, we start with the 
short missions there and investigate the effects on the crew 
before we actually send them on their long voyages. I think 
we'll learn a lot. I do think we will figure out a way to 
counter those. I don't think it's impossible.
    Chairman Babin. Same here.
    Mr. Weir?
    Mr. Weir. Yeah, I'll just speak to that a little bit. First 
off, NASA recently upped its acceptable radiation lifetime 
limit for astronauts in the event that these astronauts were 
going to the Moon. So first off, a lot of this, believe it or 
not, is solved by a simple policy decision. A very, very 
diligent fan sent me a paper that he wrote and later got 
published about the radiation dosage received by all of the 
members of the Aries program including Mr. Watney on the 
surface of Mars, and actually found that the worst of them 
would have had an additional four percent mortality likelihood, 
and that would've been actually the sys op, Beth Johanssen, 
played by Kate Mara in the movie. She would've had the highest 
mortality odds added to her because while Mark was on Mars and 
Mars was guarding him from half of the galactic radiation that 
might be getting at him, the rest of the crew were in space 
that entire time, and Johanssen is the youngest and she's 
female, both of which are things that increase your mortality 
likelihood from radiation.
    But just to be clear, we're not talking about people dying 
of horrendous radiation sickness. We're talking about a slight 
increase in mortality, and astronauts are willing to take 
risks, so on the surface of it, I don't think that much needs 
to be done at all, and then finally, the best way to deal with 
radiation amelioration is mass, just putting water between the 
astronauts and the sources of radiation and getting more mass 
to LEO. If you want to do that, put more money into private 
space travel. They'll drive the price down.
    Chairman Babin. Amen.
    I think that expends my--unless either one of you would 
like to add to that?
    Mr. Elbon. I think they covered it. The best solutions that 
we know of take a lot of weight so we have to work through that 
whole scenario.
    Chairman Babin. Right.
    Ms. Sigur. I have very little to add, only that we're going 
to get smarter the very first mission that we make. Exploration 
Mission-1 will have sensors and information that we'll be able 
to use to figure out which of these potential solutions makes 
sense for us. We're also looking at individual protection 
strategies for astronauts, and that might also be something 
that would be fruitful as we go forward. So there's more to 
come.
    Chairman Babin. You bet. Thank you, Ms. Sigur.
    You know, I've got a couple of staffers in here I wanted to 
introduce real quick, Will Carter and Lauren Jones, and also my 
wife, Roxanne, is sitting back there. I just noticed them 
there. Thank you for being here.
    I'd next like to hear from the gentlewoman from Maryland, 
Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you for the 
witnesses too and for your patience.
    I want to begin with Mr. Crusan. NASA's Journey to Mars 
strategy outlines the plans to develop an initial habitation 
capability for short-duration missions in cislunar space in the 
early 2020s and then to evolve that capability over some period 
of time, and I guess the question is whether NASA intends to 
accomplish that with habitation demonstrations in cislunar and 
what would be needed to extend those capabilities to a habitat 
that could support a human mission to Mars. And additionally, 
if you could address the question of whether you envision 
testing out multiple habitat developments or a single habitat. 
These are all details, frankly, that we should be getting to in 
a more complex roadmap that the Congress has asked for over 
some period of time, but if you could address that, I'd 
appreciate it.
    Mr. Crusan. Yes, no problem. I appreciate the question. One 
of the key aspects of what we're asking for in our NextSTEP 
activities with industry is exactly that. We know we need to 
get to a habitable volume for a transit to and from Mars that's 
greater than 300 cubic meters in volume. There's many different 
strategies by which you get to that total volume, though. You 
could launch it as a one single unit on one single flight. You 
could incrementally build it over a series of modules during 
the early 2020s out to the late 2020s. And one of the things 
we're asking industry to do is help us optimize, how do you 
split up the individual buildout pieces over that period of 
time that gets us to the end goal, the larger volume we need, 
that also still encourages that LEO transition as well, and 
looking for the optimal piece parts that you would actually 
come up with for that.
    That gets to your second question, is it going to one 
habitat or multiple habitats. It could be either. We know we 
need to get to that total volume. One of the lessons learned 
that we have learned related to the International Space Station 
and Mir before that is separate habitable volumes is actually 
extremely valuable for us for the event of emergencies like 
fire and depressurization. So there will be some semblance of 
multiple structures that are assembled together that can be 
isolated from a safety perspective but the actual 
implementation strategy is what we're exactly studying during 
this phase of NextSTEP.
    Ms. Edwards. Mr. Elbon and Ms. Sigur and Mr. Culbertson?
    Mr. Elbon. I would add a thought to that. I think it is a 
critical and important thing that we develop a habitat 
capability in cislunar that is evolvable to be the Mars transit 
capability. That means that it's going to need to grow and 
become more robust as it takes on that larger mission. To some 
degree, that's counter to moving the other way, which is 
bringing that habitat down to low-Earth orbit. I'll use an 
example. When we started the development of the Starliner, the 
commercial capsule, the first requirement I wrote across the 
top of the board was, it will go nowhere but LEO, and the 
reason was, because if we let things creep in there that would 
have it a beyond LEO, it would increase the costs and it 
wouldn't be a good thin got operate in a commercial 
environment.
    So I think there's a little bit of a tension there between 
expecting whatever we put in cislunar to go on to Mars and also 
be able to serve as a basis for a future LEO station, and it's 
important that we consider that and work through it as we 
address a procurement approach for that cislunar capability.
    Ms. Edwards. Thank you.
    Ms. Sigur?
    Ms. Sigur. I think that as Mr. Crusan said, we're in the 
process of developing the elements of what the solution needs 
to be, but what I would offer is that what our ultimate 
objectives and goals are matter. If we are working on an 
opportunity to perform test like you fly assessments at each of 
the opportunities that are available whether it's low-Earth 
orbit or around the Moon with an eventual objective to head to 
Mars, solutions are going to be vastly different. If we 
acknowledge that this could be a multinational endeavor, as I 
personally think it should be with an opportunity for everybody 
to play with ways to consider public-private partnership and 
even just flat-out commercialization on our way to reaching 
Mars, we establish different requirements. If you're developing 
a habitat that will have an ability to be a safe haven, it 
would feel different as you're considering design solutions. If 
you're looking for standards that allow for various companies 
to dock to a consistent geometry, then you're talking about 
investing in a plug-and-play configuration perhaps as we're 
looking at ways to build things out.
    If we're expecting to work in the vicinity of the Moon or 
Mars as kind of an anchor location for lots of other great 
things to happen, the solution again might be different. So 
again, the vision's important, and I think we'll eventually get 
through those things but it's going to be a very interesting 
couple of years.
    Ms. Edwards. Mr. Chairman, can we hear from Mr. Culbertson? 
Do you mind?
    Chairman Babin. Yes, absolutely.
    Mr. Culbertson. Thank you. I'll try to be brief.
    I agree with what the others have said so far, and I think 
there are some really important principles here. One is that if 
we have a habitat in the vicinity of the Moon, we have a 
destination for Orion. We also have prepositioned supplies, we 
have the ability to provide backup capabilities such as power, 
maybe even propulsion, and maybe even a way home if the 
spacecraft were to have any other problems of some sort, and it 
is a dangerous environment where things can happen, so a 
certain amount of redundancy early on in testing is important.
    As I mentioned earlier, you have to think of this as a 
shakedown cruise where you are testing not just the systems but 
the people, and not just the people in space but the people on 
the ground who are designing things, who are operating, who are 
supporting the crew. There's going to be a lot of complicated 
aspects to that that are going to have to be more than what 
we're doing now in low-Earth orbit. The modular approach I 
think is extremely important just like the watertight 
compartments on a ship protect the crew if there's anything 
that happens to any part of the hull. You may need the same 
capability as we learned on the Mir on basically an outpost 
around the Moon.
    I remember thinking as I was on the Space Station when I 
was a little bit more naive about what industry can do that I 
could just take the station, and if I had enough propulsion, I 
could go on to the Moon or on to Mars, and might want to pick a 
different crew but it still was, I think, a technical 
capability, and I think that basic principle, even though we 
would have to change some of the specifics is what we have to 
have as we go beyond low-Earth orbit.
    Ms. Edwards. Thank you, Mr. Chairman.
    Chairman Babin. You're welcome.
    Now I'd like to recognize the gentleman from Alabama, Mr. 
Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    While I support development of American-made alternatives 
to the RD-180 rocket engine, according to Undersecretary of 
Defense for Acquisition, Technology and Logistics, Frank 
Kendall, ending the use of the RD-180 prior to the availability 
of a comparable domestic rocket engine will cost taxpayers over 
a billion dollars. What effect will restrictions on the 
purchase of RD-180 engines have on NASA and Boeing's CST-100 
Starliner commercial crew space system? And my question is 
directed to Mr. Elbon.
    Mr. Elbon. Thank you. Let's see. We're concerned about 
that, even though the legislation that's being discussed 
doesn't necessarily target civil space uses, reduction in 
flight rate for the Atlas V, which CST-100 flies on, and other 
users, by the way, fly on as well to Space Station, reduction 
in flight rate could increase the cost of that, and eventually 
be an impact. So we're hopeful that that doesn't happen, that 
it's able to keep flying and then the flight rate as planned 
will allow us to continue to use that for the Starliner as 
planned.
    Mr. Brooks. Thank you, Mr. Elbon.
    My next question will be for Mr. Weir, and I want you to be 
thinking of why the American people won't go to Mars, and as a 
backdrop, I'm going to mention America's financial condition 
because that's going to be what we have to weigh, the pros and 
cons. I'm not sure if you're familiar with America's financial 
condition but in summary, we're headed to an insolvency and 
bankruptcy probably within the next 20 years, maybe in the next 
ten years, as a country. I say that looking at a $19 trillion 
debt accumulation predominantly over the last decade and a 
half, and reports by the Comptroller General, James Daro, and 
the Congressional Budget Office waring us that our current 
financial path is unsustainable, which is accounting language 
for, if you keep doing this, there's going to be a total 
collapse of the system.
    Additionally, the CBO has warned us that while we had a 
series of trillion-dollar deficits under Democratic rule of the 
House and Senate in 2007 and 2008 coupled with Barack Obama in 
2009 and 2010, since the 2010 elections, we've slowly but 
surely gotten our deficits down to $439 billion, which is where 
we were last year. This year's deficit, however, has taken a 
dramatic turn for the worse. Now it's projected to be in the 
neighborhood of $534 billion within six years, a trillion 
dollars a year--nonstop trillion-dollar-a-year deficits until 
we go insolvent.
    So with that kind of financial backdrop, what can you say 
to help persuade the American people that Mars is a goal that 
we should undertake despite the financial risks that our 
country faces?
    Mr. Weir. It's funny you should mention the potential 
insolvency because in the 1930s, the United States was not in a 
great state solvency-wide either, and during that time the 
government invested very heavily in building up the commercial 
airline space, which cost a lot of money. It required the 
government to basically take a bunch of land from various 
cities under eminent-domain laws that was worth a lot. It spent 
enormous amounts of money in the form of tax breaks and policy 
decisions in order to build the burgeoning airline industry. 
Since then, it has definitely paid itself off far more than we 
ever spent on it in the form of tax revenue from that industry.
    So I would say that my answer to your question is that 
putting money into a mission to Mars or anything related to 
space as long as a lot of that money ends up going toward 
commercial development will help bring the commercial space 
industry into a profitable situation.
    Once the price to low-Earth orbit gets down to the point 
where a middle-class American can afford to go into space, 
there will be a boom. There will be an economic boom in the 
space industry and the United States government will receive 
the benefits of that boom in the form of taxes and revenues.
    Mr. Brooks. Anybody else want to add to the comments of Mr. 
Weir?
    Hearing nothing, thank you, Mr. Chairman.
    Chairman Babin. Yes, sir. Thank you, Mr. Brooks.
    And now I recognize the gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman.
    This past weekend, the students of Longfellow Middle School 
in my district participated in the Aerospace Industry 
Association 2016 Team America Rocketry Challenge, and they are 
with us here today. So they'll stand up and we'll recognize 
you. Thank you for competing and for your excellence in math 
and engineering and technology and science.
    And Mr. Weir, of all the protagonists I've run into in my 
life, Mark Watney was easily the most adaptable and creative 
I've ever seen. You know, he's a great role model, confronting 
life-and-death challenges daily and somehow doing it with good 
cheer, with humor, and moving forward with extraordinary 
resilience. They say every first novel is autobiographical. Who 
was your role model for Mark Watney?
    Mr. Weir. Well, I admit I based him pretty much on myself 
although he's better at all the things I'm good at than I am, 
and he doesn't have any of my flaws. So he's what I wish I 
were.
    Mr. Beyer. That's great. Will there be a sequel?
    Mr. Weir. No plans for a sequel. Sorry. I'm working on an 
unrelated novel now.
    Mr. Beyer. Okay. Great. Excellent. Thank you.
    Mr. Crusan, our distinguished Chair in his opening comments 
talked about the unjustified Asteroid Retrieval Mission. Do you 
have any comments either on behalf of NASA or as a person 
paying attention to all those things?
    Mr. Crusan. In my remarks and in my testimony, I 
highlighted the two required things for sending humans into 
deep space. First is habitation, and second is in-space 
propulsion. The Asteroid Redirect Mission gives us that in-
space propulsion aspect that we're looking for. To me, that's 
the fundamental piece of the Asteroid Redirect Mission along 
with operating large-scale solar electric propulsion in deep 
space because that will be the experience that we will need to 
send cargo into Mars and eventually our crew into Mars as well. 
So there is a nice synergy between that.
    Mr. Beyer. So it really could well be interpreted as an 
essential part of getting to Mars?
    Mr. Crusan. Yes.
    Mr. Beyer. Great. Well, thank you very much.
    And Ms. Sigur, you--in your written testimony, you talked 
about how Orion has a time-triggered ethernet that's 10 times 
faster than your ethernet at home. I'd like to point out that 
Lockheed is in my Congressional district, and if you could get 
10 times faster internet for all of us, we'd be very grateful.
    Is there any commercial application for the 10 times faster 
ethernet, Ms. Sigur?
    Ms. Sigur. I will have to get that information and have it 
added to my hearing testimony.
    Mr. Beyer. That was a very careful response. I appreciate 
that.
    Mr. Elbon, you talked about how we lack the killer app to 
develop the $1 to $2 billion annually needed to get some of the 
stuff off the ground. What would the killer app look like?
    Mr. Elbon. I'm not sure. If we knew, we would probably get 
it out there. The point is, I think we need to focus on 
developing demand for activities in low-Earth orbit. We've done 
a good job of developing capability, and by that, I mean the 
ability to transport cargo and crew there, and we have 
destination, the Space Station, and talk of future 
destinations. We're very good at providing the supply. We need 
to work on the demand, users with money willing to spend on 
space. Today we have users willing to spend order of magnitude 
hundreds of thousands of dollars to do research or other 
activities in space, and to really have a commercial market, we 
have to generate revenue in the order of magnitude of at least 
a billion or two to support activities like that. So I think 
there's a real effort needed to be working on the demand side 
of that whole equation.
    Mr. Beyer. Well, thank you for putting the challenge out 
for all of us. We passed the Science Prize Act earlier this 
year. Maybe we can put that as one of the Science Prize 
challenges is what needs to be done.
    Mr. Weir, I love your idea of abandoning the zero-g gravity 
and just spinning the Space Station as they do so often. How 
difficult is it going to be to have a counterweight a quarter-
mile away as they travel through space----
    Mr. Weir. Well----
    Mr. Beyer. --as opposed to when they're stationary.
    Mr. Weir. Right. Well, the cable itself--if your space 
station were approximately the same size as the International 
Space Station, the forces would require the cable itself to 
be--I forget the exact diameter but I worked out the mass. The 
cable itself would weigh about 10,000 kilograms. Compare that 
to the 385,000 kilograms that the International Space Station 
weighs. We're talking about one part in 40 of the total mass of 
the station would be the cabling. But other than that, that's 
it. That's the additional mass. And the counterweight would not 
just be some wasted weight. That would be the other half of the 
station. There might be another crew node or it might be other 
station keeping. You would not have dead weight.
    Mr. Beyer. Is there anything in our discovery of 
gravitational waves that leads you to some creative thought 
about another approach to this?
    Mr. Weir. Unfortunately, no. The only technology we have 
available to us for artificial gravity is centrifugal force.
    Mr. Beyer. Thank you, Mr. Chair. I yield back.
    Chairman Babin. Yes, sir. Thank you.
    I now recognize the gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Pardon me for being in and out. That's the 
way we are in Congress sometimes. We've got 10 things to do at 
one time.
    And let me just note right off the bat that we seem to be 
having dual movies here. It's, you know, the Martian versus 
Gravity or something like that, you know, because in fact, 
there as a movie, Gravity, and this is what I'd like to ask Mr. 
Weir. Okay, I take it that you saw the movie Gravity as well?
    Mr. Weir. Yes.
    Mr. Rohrabacher. Okay. So we've got these threats that's 
called space debris floating around there. Don't you think that 
perhaps it would be a better use of our money right now to help 
clean up that space debris and perhaps even protecting the 
world from an asteroid or a meteorite that could destroy the 
whole world? Shouldn't we actually be getting those jobs done 
before we spend billions of dollars to try to get to Mars to 
plant our flag and come back?
    Mr. Weir. Well, we already are protecting the world from 
asteroids.
    Mr. Rohrabacher. We are?
    Mr. Weir. It's called Planetary Defense.
    Mr. Rohrabacher. Yes?
    Mr. Weir. And the main way it's done is that we track all 
asteroids that are large enough to be any significant threat to 
Earth, and that's already being done, and so we know----
    Mr. Rohrabacher. We can track, but frankly, it's being 
tracked but we don't know what to do after that.
    Mr. Weir. Well, we do know that for at least the next 50 
years, we have no dangerous asteroids heading our way. But yes, 
if we detected something that was a significant threat, I'm 
pretty sure this body and your colleagues on the other side of 
the building would be willing to, you know, put together some 
funding or something to shoot it down. So I feel confident that 
that could be taken care of.
    As for space debris, people often underestimate how big 
Earth orbit is. To give you an idea of how big it is, it's 
bigger than the whole world. It's the entire surface of Earth 
but bigger. So when people say hey, let's clean up the space 
debris, that's like saying hey, can we get rid of all the gum 
wrappers in the Pacific Ocean. There are few, they are far 
between. They are hard to find, and it's just not viable for us 
to track them all down.
    What we should be doing is putting in place policies that 
prevent people from leaving stuff up in space for very long, 
put it into orbit so that it will eventually decay, and if 
parts break off, that they will eventually decay and come into 
the safety of Earth's atmosphere, and of course, protecting 
Earth from anything that we've launched is a non-issue because 
we haven't launched anything that's big enough to survive 
reentry and hit the ground.
    Mr. Rohrabacher. Thank you. I do disagree with you on a 
couple of things but let me note that's good. That's what these 
hearings are all about is to get different points of view out. 
I wonder if the panel agrees with our witness that it's 
impossible that there would be a rock headed toward the Earth 
enough to do great damage to our Earth that we wouldn't see for 
50 years out. I think that there could possibly be something 
that might emerge on the radar screen like the one that I think 
just recently went by a couple days ago.
    Mr. Culbertson. Yes, sir. There's always a possibility that 
something could emerge, and as Congressman Bridenstine knows, 
if a target's coming right at you in the air, you sometimes 
don't see it until it's right on top of you, and that could be 
the case. I participated in a study with the National Science 
Foundation a few years ago where we did look at the 
observational capabilities both on the surface of the Earth and 
in space to track the objects that are out there, and he's 
right. We haven't detected anything yet that we can track that 
is a threat to the Earth. I also agree with him that if we did 
detect something and we had time to do something about it, we 
would do something about it.
    Mr. Rohrabacher. If we had time. That's the big ``if.''
    Mr. Culbertson. Right, but right now if you were to say I 
want to do a specific thing to protect the Earth against a 
specific asteroid or any other object, there are so many 
different types of objects out there, settling on only one 
solution probably would not be cost-effective. You'd need to 
know the threat.
    Mr. Rohrabacher. Well, let's put it this way. It would have 
to be one solution but at this point I would like to know, 
rather than spending billions of dollars to go to Mars when 
they might turn around to take a look at the Earth and see a 
big blip because all of a sudden something had hit the planet, 
we don't have the plan--I'm not talking about one option. We 
don't have a plan that has several options if something big is 
spotted headed toward the Earth, and to spend billions of 
dollars on what we can't do now, which is what's been outlined 
in testimony, and giving up those things we could do, we could 
put a plan in place to protect us, and we could put a plan in 
place that would actually deal with the--and I would disagree 
with--I think it's a little more risky than just bubblegum 
wrappers in the Pacific Ocean. And so I think we should do 
that.
    One last question. You were talking about space habitat. Is 
Bigelow--you know, Bigelow put a lot of money, its own money, 
into developing new technology for space habitat. Is that part 
of the equation is what he's done and what he offers? Is that 
going to be part of the equation of what we're talking about 
here?
    Mr. Crusan. We have contracts right now under NextSTEP with 
four commercial firms: Lockheed Martin, Boeing, Orbital ATK and 
Bigelow Aerospace. So all four are currently under our phase I 
activities, and they had an opportunity to move to phase II 
just like the others and an ability to on-ramp also other 
organizations beyond the four that we are currently working 
with.
    Mr. Rohrabacher. Well, there's lots of things that we can 
do in space. I hope that we make sure that we don't waste 
dollars on things that we don't accomplish anything with, and 
on that, the witness--see, I'm an author too. I'm a writer too. 
We're both writers. And I agree with you totally.
    So thank you very much, Mr. Chairman, for this hearing.
    Chairman Babin. Yes, sir. Thank you.
    And now I recognize the gentleman from Oklahoma, Mr. 
Bridenstine.
    And by the way, we are going to go back through a second 
round of questions if that's okay with everyone.
    Mr. Bridenstine. I approve.
    Chairman Babin. Okay.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I wanted to bring up a couple of things that I want to make 
sure people understand my philosophy on, primarily because of 
some of the testimony we just heard.
    The Interagency Space Debris Coordination Committee put out 
a study not too long ago. It included five other space agencies 
from throughout the world and then NASA is the sixth, and it 
indicated that in that critical orbital regime from 700 
kilometers to 900 kilometers, given the current regulatory 
environment, we will continue to see space debris grow. It's 
not going to go away. It will continue to grow, and that's if 
everything stays the same as far as launch frequency and the 
satellites that are launched right now, and we know that that 
is not the case. Launch frequencies are going to continue to 
increase. We've got constellations that are hundreds and in 
many cases--in some cases now thousands of satellites going 
into low-Earth orbit, and this is not going to be sustainable 
for the long term. We've got to make sure we're doing the right 
things on this Committee so that we can mitigate the debris, as 
you talked about, but eventually there's going to come a day 
when remediation is going to be necessary, and we need to be 
very serious and methodical about how we go about that.
    I wanted to ask you a question, Mr. Crusan, about one of 
the reasons to do the Asteroid Redirect Mission is for 
propulsion. Why is it necessary to do an asteroid redirect 
mission to create the propulsion capabilities necessary for a 
Mars mission?
    Mr. Crusan. So there are two aspects that are important, 
the actual funding of large-scale solar electric propulsion 
systems from the arrays to the power management systems to the 
actual thrusters. The other aspect is actually operating a 
large-scale system such as that in deep space for a prolonged 
period of time to get a good understanding.
    Mr. Bridenstine. So why is an asteroid redirect mission 
necessary for that?
    Mr. Crusan. It's an opportunity to test those critical 
systems.
    Mr. Bridenstine. So it's not necessary, it's just something 
that would be a good idea because it gives us a reason to do 
what is necessary?
    Mr. Crusan. Yes.
    Mr. Bridenstine. Okay. I wanted to ask you a question 
regarding the fiscal year 2016 Omnibus. It directed NASA to 
have a cislunar habitat prototype ready by 2018 and directed 
NASA to spend no less than $55 million specifically on a 
habitation module. However, NASA's operations plan for fiscal 
year 2016 only allocates $25 million, not the total $55 
million, to NextSTEP activities. According to the NextSTEP 2 
announcement, ``The initial solicitation is seeking ground 
prototype habitation systems.'' It seems as if NASA is only 
spending $25 million explicitly on the development of a ground 
prototype. Can you explain how NASA's other expenditures meet 
the Omnibus directive of $55 million specifically on the 
prototype? So $25 million, $55 million. Where's the other $30 
million?
    Mr. Crusan. So there's two aspects that we're looking at. 
You have the habitation systems, the things that which you put 
inside the habitat--the life support systems, the radiation 
mitigation, things like logistics and the outfitting. Those are 
all core systems. And then you have the integrated habitat 
itself, the actual module or modules that you would like. Both 
of those are needed to go forward. In fiscal year 2016, we're 
actually spending in excess of $70 million on habitat systems 
at the total level, part of that in the integrated capability 
with industry and part of that also with industry on the 
habitat systems that are actually going to be inside of that 
overall capsule or module that we'll be actually building. So 
we believe we're meeting the intent of that by spending in 
excess of $70 million on habitat systems and the integrated 
habitat capability.
    Mr. Bridenstine. Are you guys going to be able to achieve a 
prototype habitat for cislunar by 2018?
    Mr. Crusan. In our current budget profile? Yes.
    Mr. Bridenstine. Now, when you think about--and this is 
just because I don't know. I'm asking you, when you think about 
having a prototype, what does that mean? Does that mean it's 
going to be on the ground? Does that mean it's going to be in 
space?
    Mr. Crusan. No. So it'll absolutely be a ground prototype, 
and we look at form, fit and function. Form and fit, obviously 
we believe we can have high fidelity of those. The level of 
function is a level of ability to actually build all the 
various systems, either in a computer model mode or actual 
physical hardware. So it will have high-fidelity form and fit, 
and variable fidelity of function, depending on what we see in 
our proposals actually on phase II.
    Mr. Bridenstine. Awesome.
    Mr. Chairman, I'm out of time. Thank you.
    Chairman Babin. Yes, sir. Thank you.
    Now I think we will go back through one more time if that's 
okay, and my next question would be for Mr. Crusan first but if 
anyone else would like to answer, I certainly would appreciate 
it.
    NASA must ensure its investments in and acquisition 
strategies for deep space habitats are in the taxpayers' best 
interests. At the same time, a legitimate part of NASA's 
strategy for deep space habitats is to make investments that 
facilitate private-sector habitats in low-Earth orbit and 
beyond. In phase III of NextSTEP, NASA will determine its 
acquisition approach for deep space habitats. What types of 
acquisition mechanisms should NASA be considering, and what are 
the benefits and challenges of these respectively and how 
should NASA balance the interests of the taxpayers fostering 
commercial markets?
    Mr. Crusan. So as you note, there are multiple strategies 
that we could go with the final acquisition. In NextSTEP phase 
II, we require a corporate resource contribution of 30 percent 
at a minimum eligibility requirement on that procurement, on 
that solicitation. That is to foster the dual use of whatever 
habitation systems for deep space are meant for low-Earth orbit 
for that kind of skin in the game of those procurements. That 
also allows us the ability for intellectual property related to 
commercial endeavors in low-Earth orbit to reside with the 
commercial entities as well.
    So going forward into the final acquisition, it could be 
that one choice we go to a standard cost-plus-type contract or 
it could be more of a fixed price in certain elements of the 
contract where there's high alignment with commercial needs. 
When we talk about a habitat, it could be a subsystem, the 
entirety of the system. You could think about service modules 
or small propulsion buses that have high alignment, say, with 
commercial satellite buses, or the habitat structure be on a 
fixed-price basis. So it's much more granular when you start 
dividing the various systems that we could approach. So you 
wouldn't have to have a single contract methodology for the 
entirety of the system end to end. You could actually have 
customized acquisition pieces that match best with the 
commercial potential of those subsystems, and that's what we're 
looking at trying to achieve you of this phase II effort is 
looking at how do you divide a system up in such a way that 
optimizes the LEO use of components while getting at the deep 
space needs that we have, and we know there will be 
incompatibility in a few of those areas, and that's what we're 
trying to find during the studies.
    Chairman Babin. Okay. Thank you, Mr. Crusan. Would anybody 
else like to add anything there?
    Mr. Elbon. I would like to add----
    Chairman Babin. Mr. Elbon, yes, sir.
    Mr. Elbon. --a couple of points. You know, the public-
private partnership has worked really well for Commercial 
Cargo, and I think we'll find that it'll work really well for 
Commercial Crew. It's important, I think, to remember that that 
mission is a mission we've been doing since we put John Glenn 
in orbit over 50 years ago, well understood the risk postures, 
understood the technologies there to do it, and so companies 
were able with some very top-level NASA requirements to develop 
solutions to do that mission.
    We're now going beyond low-Earth orbit into deep space, the 
area around the Moon, and we haven't done as much there. The 
requirements aren't understood. I think NASA needs to stay in 
the middle of those requirements because this thing is going to 
evolve into what goes to Mars. And so it's real important that 
we look at the differences in the mission and the whole 
situation and not look at everything as a nail because we've 
got a hammer here.
    Chairman Babin. Exactly. Thank you.
    And one more question for Mr. Weir. As a writer, you've 
inspired many with the possibility of science, technology, 
engineering, mathematics, and let's not forget botany. We 
certainly need young people devoted to STEM fields if we are 
going to Mars. What recommendations do you have for this 
Committee and for NASA as to how we can continue to inspire 
people with space exploration and the possibilities of STEM? 
And these four young ladies sitting in the back I think are 
perfect examples of people who are being inspired, and if you 
could elaborate on that, I would appreciate it.
    Mr. Weir. Well, I would recommend you keep doing cool 
stuff. I mean, basically----
    Chairman Babin. I've been trying to do that all my life.
    Mr. Weir. Yeah. Well, basically people, especially kids, 
are motivated by results, by what they see. So ideologies or 
concepts or things we might do at some point in the future, 
those are less interesting to kids choosing potential careers 
than the things that are actually being done. So if you want to 
see more kids in STEM, do more cool stuff in space.
    Chairman Babin. Good answer. Okay. All right. Thank you so 
much.
    And now I'd like to recognize the gentlewoman from 
Maryland, Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and again, thanks to 
the witnesses.
    I have a couple of questions actually for the companies who 
are here because you have decades of work in space systems, and 
I'm just trying to figure out what it is that NASA needs to do 
now in conjunction with our elected leadership to make sure 
that we're really on pace to get this done, and my concern 
rests with the fact that we continue to have this kind of push 
and pull with the Administration and the Committee over what 
platform we're going to use as the springboard to Mars. Is it 
going to be an asteroid retrieval mission? Is it going to be on 
the Moon? I mean, all of those different considerations. And I 
want to know from your perspective when we need to resolve this 
so that we have the ability to move forward in a way that 
allows us to put the resources that are necessary to get the 
job done. Because I think as long as the Executive Branch and 
the Congress are in slightly different places, it's very 
confusing, and it's unpredictable, and we don't have the 
resources that we need, and in fact, we could be just wasting 
money because we'll come up on another Administration starting 
from scratch. And so I would just like your opinions of that. 
Mr. Elbon?
    Mr. Elbon. Yeah, I'll start. I was asked in the Human to 
Mars panel this morning what the biggest tent pole was for us 
getting to Mars, and my response was just about what you said, 
and that is, we need to get on a path and stay on that path, 
and it has to survive several Administrations, you know, in a 
couple decades here. So I think we have to be careful not to be 
distracted by other ideas, not to invest in one path and then 
switch to another path. So the answer I would give is as soon 
as we can we need to nail down the architecture and the 
approach and then stay on that path, keep it funded, and that 
will allow us to get to Mars at lower cost and a lower schedule 
than switching back and forth.
    Ms. Edwards. Thank you.
    Ms. Sigur?
    Ms. Sigur. And my comment is much along the same lines. A 
level of commitment and vision I think are mandatory. NASA has 
a great vision to establish certain types of capability. What 
we can't afford to do is to start and stop and start and stop 
and start and stop. The questions and the issues are very hard. 
Multiyear funding would be beneficial, and that once we 
establish that there's a vision that we're going to go after, 
let's commit.
    There's a difference when we're trying to get a commitment 
for someone to make a one-off and something that feels like a 
business. So having that vision, establishing it for multiple 
years and sticking to it I think would be a real benefit.
    Ms. Edwards. Mr. Culbertson?
    Mr. Culbertson. Yes, ma'am, pretty much along the same 
lines. We need a vision. We need leadership. We need decisions 
out of the government, both branches of the government, and we 
need everybody to be pretty much on the same page. So in my 
view, it needs to be as non-partisan as possible, bipartisan 
where necessary, but we need decisions and we need the right 
level of funding, and also you need to know that as industry, 
you're investing in this, it will eventually pay off for you 
too, and so if we're going to have to have skin in the game, we 
need to understand how NASA or other agencies will allow us to 
commercialize that. For example, if we had an X percentage 
investment in it, we ought to be able to sell X percentage of 
that capability while we are providing that kind of service and 
support. Services are a good way to start in this, and we're 
doing that with Cargo and Crew and other ways of continuing 
those kind of operations in space, and of course, 
communications is a great example of how that can evolve into a 
standalone industry. Whether we can establish an industry like 
that around the Moon, I think that's a long way off but it 
certainly could happen, depending on what we discover there.
    I also think, to address some of the earlier discussion, 
developing the capabilities to do these kind of things will 
allow us to address some of the other really hard problems such 
as protection of the planet and detecting things further out 
and sooner so that if we need to take action, we can do that. 
That comes as a byproduct of doing really hard things like this 
as we saw going to the Moon.
    Ms. Edwards. Thank you. And we don't have time for it here 
today but I do think that there's value in providing 
information to the Committee about what you perceive as the job 
creation and technology creation capabilities that would lend 
itself to the way that we begin to think about the value of 
investing in this really long-term and quite expensive 
endeavor, and the question is, will it pay off in the kind of 
way that the space program has over these last almost six 
decades. So thank you very much for your consideration.
    Chairman Babin. Thank you.
    Now I'd like to recognize the gentleman from Oklahoma, Mr. 
Bridenstine.
    Mr. Bridenstine. Well, thank you, Mr. Chairman.
    Ms. Sigur, I wanted to second your comments about, we need 
to have a vision and we need to have something that we can 
stick to, and I think all of us on this Committee on both sides 
of the aisle agree with that 100 percent, and I agree with you 
especially because you're a graduate of Rice University, which 
everybody knows is the preeminent engineering school in the 
country. Although I was not an engineer there, I highly respect 
those who were.
    I want to go back for a second. I'm going to sound like a 
broken record here but when you think about the space debris 
challenge that we have, it is very real, and I know Orbital 
ATK, you guys are working on doing some mitigation by extending 
the life of satellites that currently exist in space so that we 
don't have to continue launching new, but I'm on the Armed 
Services Committee, Subcommittee on Strategic Forces, and I can 
tell you, you go back to 2007, the Chinese shot down a weather 
satellite, created 5,000 pieces of orbital debris. A couple 
years later you had an Iridium satellite collide with a Cosmos 
satellite, created thousands of more pieces of orbital debris, 
all in these critical orbital regimes, and this Interagency 
Committee on Space Debris Coordination said that those kind of 
collisions, Iridium and Cosmos, will continue to happen on 
average every five to nine years, which means they're going to 
continue to grow. So these are absolutely necessary.
    I believe by making the right investments today, not only 
are we protecting low-Earth orbit but we're protecting our 
ability to do what's necessary to get to Mars one day. That's 
what we're doing.
    On the Mars issue going back for a second, the Mitch Daniel 
report that came out, the National Research Council put out a 
report, said, you know, our budgets, the money we are spending 
today and our missions and our strategy absolutely will not get 
us to Mars. It wasn't that it was going to be delayed ten years 
or delayed 20 years. They flat-out said we're not going to get 
there. That should have sounded an alarm for all of us on this 
Committee. What is we're doing wrong? And we need to get real 
assessments over what we're doing wrong on this Committee so 
that we can actually go home and tell our constituents that we 
are not investing their money in vain. I mean, that should have 
infuriated all of us on this Committee. And so we have those 
issues.
    Now, when you talk about SLS and you think about specific 
mission plans beyond EM-1, I believe we need an increased 
launch frequency. I don't think that, you know, launching every 
four years is going to get done what we need to get done and 
have it be safe. But barring that we're going to increase 
launch frequency given the budgets that we have, we need to 
increase the utility of every launch that we do, and I wanted 
to ask if when it comes to EM-2, Mr. Crusan, do you know, is 
there going to be a secondary payload that might be a habitat 
that could go out to cislunar or beyond low-Earth orbit?
    Mr. Crusan. So one of the things we're looking at is how do 
you do that sequence of habitation buildout. So part of the 
NextSTEP analysis with industry here is looking at the ability 
to co-manifest on SLS and looking at the crew and the ability 
for habitation elements or habitation modules per se and how 
would you put those on. Consideration for the EM sequence will 
have a direct impact on what cargo and what capabilities fly on 
each of the exploration missions on SLS. That's what we're 
studying actually with industry.
    Mr. Bridenstine. So when we think about--and I know I just 
asked you the question about the Asteroid Redirect and why is 
that necessary, is it possible that we could launch a habitat 
on EM-2 and then have that be the target, in essence, for 
follow-on SLS missions?
    Mr. Crusan. Depending on the size of the habitat, yes. 
Technically, there is no reason why you wouldn't put on there. 
It's an ability of, is that the right first element or do you 
want to split apart your elements of station-keeping capability 
or a node or habitat. That's one of the things that we're 
working with industry, which pieces of those do you sequence 
first.
    Mr. Bridenstine. So is it possible, could we use a Delta IV 
to put a habitat where it needs to go to make that a target for 
the follow-on EM missions?
    Mr. Crusan. So under the NextSTEP phase II, we have the co-
manifested option with SLS that people can study and give us 
options for that. We also have the ability for industry to 
propose alternative launch vehicle options as well including 
Delta IV and others, and where we stage that is in deep space, 
so as long as those vehicles or whatever proposed vehicle that 
they're talking about can throw a reasonable size volume to 
cislunar space, then yes, that's an open consideration.
    Mr. Bridenstine. Mr. Chairman, if it's all right--I know 
I'm out of time. We need to make sure that Congress is aware 
and understands what the objective here is and ultimately the 
direction we're going to go because I don't want to get another 
report in ten years that says under no circumstances will we 
ever get to Mars and between now and ten years from now we will 
have made all these investments believing one thing and being 
told later something else.
    So with that, Mr. Chairman, I yield back.
    Chairman Babin. Thank you. Well stated.
    I now recognize the gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman.
    Ms. Sigur, we--my understanding through this is that we've 
been taking about habitats in orbit around Moon and later 
obviously the habitat that takes us through the thousand-day 
journey. And then you've written about the habitats in a Mars 
orbit and stationing it there instead, and suggested, at least 
in the written testimony, that you might be able to do that by 
2028, which is, you know, 4 or five years earlier than we 
planned with NASA. Is this built into NASA time frame? And what 
are the necessary steps to move to essentially a Mars orbit 
rather than something cislunar?
    Ms. Sigur. Let me add a couple of points of clarification. 
The proposed mission would be one that would be in Mars orbit, 
not supplanting a mission to the surface of Mars, which is 
still planned as scheduled for the 2030s. The concept is that 
at Mars orbit, we'd be able to get smarter, we'd be able to get 
information and data, and it would allow for us to have real 
information about the planet and make real-time decisions and 
accelerate some of the milestones that would be forthcoming, 
and again, could happen a lot faster because we're in close 
proximity. The steps that we propose are taking advantage of 
existing committed missions that we have for Orion SLS with a 
view towards leaning forward as was just recently suggested by 
Congressman Bridenstine to say let's look to see what's 
happening in EM-1, 2, 3 and beyond to see if there are ways for 
us to do prepositioning, to see if we can work early tests with 
a target towards having before we get to 2024 a habitat system 
around the Moon, which does take advantage of using that as a 
testing ground for the deep space systems that we have before 
we go even further beyond.
    So nothing that I've said is intended to preclude those 
milestones as steppingstones but really push towards how we can 
bring things forward to the left by doing some of the hard 
tests earlier.
    Mr. Beyer. Thank you.
    Mr. Culbertson, you mentioned that Orbital ATK's cislunar 
habitat design incorporates lessons that you've learned from 
delivering cargo to ISS. Can you talk about what some of those 
lessons are?
    Mr. Culbertson. Yes, sir. Many of them have to do with 
acquisition process in terms of how we built this as an orbital 
investment with NASA co-investing but we own the system 
basically and we provide the service, and they pay for the 
service. You can take that same principle almost anywhere in 
the local vicinity--by that, I mean the Moon--by providing 
cargo services, crew services, power, other things that you 
could provide to any NASA activity that was happening around 
the Moon. But a lot of it has to do with how the hardware's 
developed, what the level of oversight versus insight is that 
NASA would have to have. As long as they set the goals and the 
standards and we can meet them, then you can provide the 
service and they can get what they need without investing in a 
whole lot of hardware. But the commercial industry, of course, 
has to show a return for shareholders in order to be able to do 
that.
    On the technical side, of course, the spacecraft has 
performed very well autonomously going to the Space Station, 
achieving its rendezvous, stopping at 10 meters and being 
grappled by the crew. That kind of autonomy certainly can apply 
to any activities in cislunar space. The redundancy that we 
have, the spacecraft was based on our 15-year life geocoms that 
have a lot of resiliency and reliability in their systems, and 
we can fly a lot longer than the 90 days that we currently do 
on a Space Station mission. So we think we've got the basics 
available to us to move to low-Earth-- I mean to cislunar.
    Mr. Beyer. Thank you very much.
    Mr. Elbon, you talked and wrote about the challenges of in-
space propulsion, which obviously is very different from 
blasting off at Wallops Island. You also wrote about the solar 
electric tug using the power of the sun to do the propulsion. 
Is that what's generally established as the way we're going to 
move from, say, a cislunar station all the way to Mars?
    Mr. Elbon. Yeah, one of the building blocks of the 
architecture is a solar electric capability that would be used 
to accelerate on the way to Mars and then after you're halfway 
there you can decelerate, and that is a very efficient kind of 
propulsion system from a mass perspective, and as Mr. Crusan 
was talking, it's a big part of what will come out of the 
Asteroid Retrieval Mission, so we'll have that capability. It's 
important for us to be able to do the mission.
    Mr. Beyer. And is that really the only form of in-space 
propulsion that's being considered?
    Mr. Elbon. Well, it will take a lot of--not a lot. In 
addition to that, we'll need cryopropulsion, and that gets into 
technologies of being able to store the cryo, maybe not just 
cry but at least chemical propulsion to allow us to make the 
initial increase in Delta V to get away from the Moon and on 
the way back from Mars as well.
    Mr. Beyer. One last short question.
    Mr. Weir, did you pick Matt Damon to play you or----
    Mr. Weir. No. My main job on the film was to cash the 
check.
    Chairman Babin. That is not a bad job, I can tell you that.
    This concludes our hearing, and I want to thank each and 
every one of you, Mr. Crusan, Mr. Elbon, Ms. Sigur, Mr. 
Culbertson and Mr. Weir. It's been a fascinating hearing and I 
really have enjoyed it, and we've learned a lot, and I want to 
also announce that the record will remain open for two weeks 
for additional written comments and written questions from 
members who perhaps were not able to make it.
    So with that, this hearing is adjourned.
    [Whereupon, at 4:32 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record


 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
